*2oNo.

SUPREME COURT OF THE UNITED STATES

EDWARD F. SADJADI and CYNTHIA M. SADJADI

Petitioners, Pro Se

vs.

COMMISSIONER OF INTERNAL REVENUE,

Respondent.

FILED
OCT 0 5 2020
SUPREME^joURTlU ^

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Edward F. Sadjadi; Cynthia M. Sadjadi
Petitioners, Pro Se
12407 Altamira Street
Austin, Texas 78748
(512) 632-7016
efsadi adi@,email. com

Received
OCT 1 3 2020

I.

QUESTION PRESENTED

Wlier© the IRS argues that the Offer In Compromise (OIC) form the petitioners
used was clear and unambiguous, does the OIC form contain clear and unambiguous
language that concisely, specifically and explicitly states whether the obligation to
comply with tax payments for the next five years is or is not contingent on early full
payment of the amount in the compromise agreement before the end of the five-year
period?
Unlike all common debt repayment agreements where the contract is
terminated and all parties’ obligations end when full payment of the agreed-upon
balance of the debt is paid, can the IRS impose uncommon conditions upon taxpayers
without explicitly and clearly communicating those uncommon conditions?

i

II.

TABLE OF CONTENTS

I.

QUESTION PRESENTED

1

II.

TABLE OF CONTENTS

11

III.

TABLE OF AUTHORITIES

m

IV.

PETITION FOR WRIT OF CERTIORARI

1

V.

OPINIONS BELOW

1

VI.

JURISDICTION

1

VII.

CONSTITUTIONAL PROVISIONS

1

VIII. STATEMENT OF THE CASE

1

IX.

REASONS FOR GRANTING THE WRIT

3

X.

CONCLUSION

4

ii

III.

TABLE OF AUTHORITIES

Cases

EDWARD F. SADJADI, CYNTHIA M. SADJADI, Petitioners, Appellants, v.
COMMISSIONER OF INTERNAL REVENUE, Respondent, Appellee, UNITED
STATES COURT OF APPEAL FOR THE FIFTH CIRCUIT No. 19-60663

EDWARD F. SADJADI and CYNTHIA M. SADJADI, Petitioners, v.
COMMISSIONER OF INTERNAL REVENUE, Respondent CIR Tax Court No. 635118L

iii

IV.

PETITION FOR WRIT OF CERTIORARI

Edward F Sadjadi and Cynthia M Sadjadi, residents of Austin, Texas, pro se,
respectfully petitions this court for a writ of certiorari to review the judgment of the
Fifth Circuit Court of Appeals.

V.

OPINIONS BELOW

The decision by the Fifth Circuit Court of Appeals, JONES, ELROD and
HIGGINSON, Circuit Judges, reported as No. 19-60663 to uphold the US Tax Court
judgement.

VI.

JURISDICTION

Petitioners’ petition to the Fifth Circuit Court of Appeals was denied on July
7, 2020. Petitioners invoke this Court's jurisdiction, having timely filed their petition
for a writ of certiorari within ninety days of the Fifth Circuit Court of Appeals
judgment.

VII.

CONSTITUTIONAL PROVISIONS INVOLVED

There are no specific constitutional provisions involved.

VIII. STATEMENT OF THE CASE
Petitioners originally filed their petition as regular (non-S) case with the US
Tax Court on April 2, 2018, disputing Notice of Determination Concerning Collection
Action dated March 6, 2018. The notice sustained a proposed levy for the balances of
Federal income tax owed by petitioners for 2008, 2009, 2010, 2011, and 2015.
There were two points of disagreement on Petitioners/Appellants petition to the US
Tax Court:
Point 1- Balance owed - Tax year 2010: An appeal (filed with the IRS Appeals Office)
was in effect at the time of the CDP hearing. The IRS Appeals Office completed its
evaluation and reduced 2010 taxes owed by $9,684.
Point 2- Returned balance, Offer in Compromise - Tax years 2008 and 2009: Offer in
Compromise was agreed in April, 2013, for the amount of $21,515, minus qualified
1

payments already made and applicable credits, to be paid over a 5 year period in
equal monthly payments. The IRS received $22,935 in credits and payments through
September 2016, much earher than the agreed 5 years term of the OIC.
In October 2016, Petitioners/AppeUants filed their 2015 tax return and
submitted a request for an installment agreement for taxes owed for that year. In
March 2017, Petitioners/Appellants was informed by Respondent/Appellee that total
balance due for the OIC was $4,200.00. Shortly after, Petitioners/Appellants were
given a notice of default with no specific reference made to the exact cause for default.
Respondent/Appellee issued collection notices to Petitioners/Appellants and
Petitioners/Appellants requested a CDP hearing. CDP hearing was held on October
3, 2017. During the CDP hearing, Petitioners/Appellants disputed the amount of the
assessed taxes for 2010, citing the pending appeal with the IRS Appeals Office.
Additionally, Petitioners/Appellants argued that cumulative payments received by
Respondent/Appellee exceeded the amount agreed in the OIC and that the OIC
should be considered complete. Subsequently, Petitioners/Appellants received Notice
of Determination Concerning Collection Action, dated March 6, 2018.
The OIC form states 5-year compliance is required but fails to state the 5-year
compliance is not based on or dependent on the 5 years as agreed in the OIC
agreement nor does it state the 5-year compliance is required even after the balance
is paid in full earlier than agreed in the OIC agreement. Petitioners/Appellants
interpreted the OIC agreement equal to a “Promise to Pay” contract, in effect only
until paid in full. Petitioners/Appellants filed 2015 return after they believed the OIC
was paid in full. Petitioners/Appellants acted in good faith, complied with all terms
and conditions of the OIC agreement as they understood them, and paid the agreed
amount of the OIC agreement earlier than agreed. Petitioners/Appellants argued if
they were properly informed, either by clear and concise language on the OIC form
or verbally advised by the IRS at the time when the OIC agreement was signed, they
could and would have made arrangements to pay the balance owed for 2015 to avoid
non-compliance. Petitioners/Appellants further argued the Respondent/Appellee
knows, or should know, failure to provide clear, explicit and definitive information
about such important condition on a document that represents a binding contract
between the US government and its citizens leaves room for misinterpretation and
confusion on behalf of the average tax payer.
The parties agreed on the amounts owed for 2010, 2011, and 2015. The
underlying liabilities were reported, assessed, or abated by agreement between the
parties, so they are no longer in issue. The analysis of the case was limited by
applying an abuse of discretion standard.
Trial was scheduled and held before Honorable Judge Cohen in San Antonio,
Texas on January 7, 2019. Order and decision was entered May 29, 2019 by
2

Honorable Judge Cohen stating collection may proceed as determined in the notice of
determination concerning action under section 6320 and/or 6330 on which The US
Tax Court based this case.
Petitioners/Appellants filed Notice of Appeal on August 29, 2019 to The United
States Court of Appeals for the Fifth Circuit. The case was Docketed No. 196063
October 1, 2019. The United States Court of Appeals for the Fifth Circuit issued a
decision on July 7, 2020, upholding the US Tax Court judgement.

IX.

REASONS FOR GRANTING THE WRIT

A. To avoid ambiguity of the language in the OIC form, this Court should clarify the
communication and disclosure requirements and standards that apply when the
IRS and taxpayers agree to the terms and conditions of the OIC which is in fact a
contract between the US Government and its citizens. There is no explicit, specific
and clear reference made to the event of an early full payment of the OIC balance
and whether the remaining terms and conditions of the OIC are or are not
contingent upon the early full payment. Therefore, the matter is subject to
interpretation.
B. The average taxpayer would logically interpret the lack of explicit, specific and
clear reference to the early full payment of the OIC based on common lending
practices. In most common lending practices, early payment of the remaining
balance ends the contract and releases all parties from further obligations. In
cases where an early payment would carry exceptions, such as early payment (pre­
payment) penalties, the contract explicitly, specifically and clearly refers to the
exceptions and state the ramifications and implications.
C. To protect the taxpayers from undue and unjust hardship caused by the ambiguity
of the language in the OIC form, this Court should discourage the IRS from
imposing uncommon practices and hold the IRS to the highest level of standards
for disclosing those uncommon practices if they apply. The IRS is already given
enormous authority and the power to cause significant financial hardship on the
taxpayers in order to collect the rightfully due taxes. Most common taxpayers,
such as the Petitioners in this case, understand their tax responsibilities and
obligations and do their best to fulfill those responsibilities and obligations.
Imposing uncommon contractual practices with ambiguity and without making
clear, concise, explicit and specific reference to those uncommon practices is an
unfair and unjust act by the IRS.
D. The Petitioners made every effort in good faith to meet their OIC obligations as
they understood and paid the agreed amount early in full. Had the OIC form
contained explicit and clear reference to state further obligations are not
contingent upon early full payment, Petitioners would have made every possible
3

effort to pay their 2015 taxes without requesting an installment plan. The
Petitioners are educated and knowledgeable people and would have never allowed
a default on their OIC obligations had they were properly informed by the IRS of
what the uncommon practices in the OIC really mean.
X.

CONCLUSION

For the foregoing reasons, Petitioners respectfully request that this Court
issue a writ of certiorari to review the judgment of the Fifth Circuit Court of Appeals.

DATED this 30th day of September 2020.
Respectfully submitted,

EDWARD F SADJADI
and
CYNTHIA M SADJADI
Petitioners, Pro se
12407 Altamira Street
AUSTIN, TEXAS 78748
Tel.: (512 632-7016
E-Mail: efsadjadi@gmail.com

4

